          ACCOUNTING ENTRIES MADE BY THE
   DEFENSE FINANCE AND ACCOUNTING SERVICE OMAHA
       TO U.S. TRANSPORTATION COMMAND DATA
                   REPORTED IN DOD
         AGENCY-WIDE FINANCIAL STATEMENTS


Report No. D-2001-107                          May 2, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
JV                    Journal Voucher
USTRANSCOM            U.S. Transportation Command
                      Office of the Inspector General, DoD
Report No. D-2001-107                                                     May 2, 2001
  (Project No. D2000FD-0205)

          Accounting Entries Made by the Defense Finance and
           Accounting Service Omaha to U.S. Transportation
            Command Data Reported in DoD Agency-Wide
                         Financial Statements

                               Executive Summary

Introduction. We prepared this report in response to Public Law 101-576, the Chief
Financial Officers Act of 1990, as amended by the Federal Financial Management Act
of 1994. This is one of a series of reports on the preparation and use of journal
voucher and other accounting entries by Defense Finance and Accounting Service field
sites. This audit focused on accounting entries made by the Defense Finance and
Accounting Service Omaha to adjust U.S. Transportation Command financial data.
During FY 2000, Omaha processed 2,466 accounting entries by journal vouchers,
valued at $173.6 billion, related to U.S. Transportation Command. Of these
accounting entries, we examined those made in March 2000.

Objectives. The overall objective was to determine whether adequate procedures were
used by Defense Finance and Accounting Service field sites in processing and reporting
U.S. Transportation Command data in the FY 2000 DoD Agency-Wide Financial
Statements. Specifically, we identified and evaluated journal vouchers and other
accounting entries made by the Defense Finance and Accounting Service Omaha to
U.S. Transportation Command financial data.

Results. The Defense Finance and Accounting Service Omaha made $11.6 billion in
unsupported accounting entries out of the $12.6 billion total accounting entries made in
March 2000 by journal voucher to U.S. Transportation Command Working Capital
Fund records. Further, of the unsupported entries, $.2 billion were also not properly
approved. Our results for March 2000 suggest the potential exists for additional
unsupported accounting entries among the $173.6 billion in total journal vouchers
processed by Omaha for the Command during FY 2000. The administrative
documentation problems identified have resulted in material control weaknesses that
affect the accuracy of the accounting records and the FY 2000 DoD Agency-Wide
Financial Statements. After alerting management to this condition, local guidance and
additional headquarters guidance on journal vouchers was issued, which should improve
the accuracy and reliability of reporting on the FY 2001 financial statements.
Summary of Recommendations. We recommend that the Director, Defense Finance
and Accounting Service Omaha, fully implement existing guidance for accounting
entries made by journal voucher by providing adequate supporting documentation and
obtaining appropriate approval. We further recommend that the Director, Defense
Finance and Accounting Service, revise journal voucher guidance to provide an
adequate basis for approving journal vouchers and develop performance standards and
an action plan for implementing the journal voucher guidance.

Management Comments. The Director for Accounting, Defense Finance and
Accounting Service agreed to fully implement the applicable provisions of the “DoD
Financial Management Regulation” and internal guidance on journal vouchers. The
Director stated that subsequent internal reviews determined that supporting
documentation was available for $11.6 billion of the unsupported entries, although not
always attached to the journal vouchers. The Director stated that adequate supporting
documentation was already required as a basis for approving accounting entries. As an
alternative to developing performance standards and an action plan, the Director
planned to provide additional training on accounting entries to each site and monitor the
progress of improvements through internal control operational reviews. See the finding
for a more comprehensive discussion of management comments and the Management
Comments section for the complete text of management comments.

Audit Response. The comments are partially responsive. The Defense Finance and
Accounting Service comments on the recommendations to implement DoD and internal
agency guidance are responsive. Although providing some assurance on the validity of
the transactions, the agency’s internal review did not alter the fact that $11.6 billion of
accounting entries were unsupported when we performed our audit. Specifically,
management had not ensured that supporting documentation was attached or adequately
referenced to the journal voucher package. This condition was found even though
accounting entries had been approved over 90 days before we started our review.
However, management initiatives should result in improvements for FY 2001.
Management comments were not responsive to recommended revisions to agency
guidance to require that accounting entries be adequately supported when presented for
approval. Internal agency guidance states that accounting entries may be approved 5
days before all supporting documentation is made available to the approving official.
The guidance should be changed to require that all supporting documentation be
presented at the time of journal voucher approval. Also, although sound actions, the
proposed alternatives to developing performance standards and action plans will not
provide agency managers with an adequate basis for measuring the progress made in
implementing the guidance issued on accounting entries. We request that the Defense
Finance and Accounting Service provide additional comments by June 29, 2001.




                                             ii
Table of Contents

Executive Summary                                 i


Introduction
     Background                                   1
     Objectives                                   2

Finding
     Adequacy of Accounting Entries               3

Appendixes
     A. Audit Process
         Scope                                   10
         Methodology                             11
         Prior Coverage                          11
     B. General Guidance                         12
     C. Example of Unsupported Journal Voucher   13
     D. Report Distribution                      16

Management Comments
     Defense Finance and Accounting Service      19
Background
  The audit was performed in response to the Chief Financial Officers Act of 1990
  (Public Law 101-576, November 15, 1990), as amended by the Federal Financial
  Management Act of 1994 (Public Law 103-356, October 13, 1994). This report is
  one of a series of audit reports related to journal voucher (JV) and other accounting
  entries to DoD-wide data in the FY 2000 DoD Agency-Wide Financial Statements.
  Inspector General, DoD Report No. D-2000-179, “Department-Level Accounting
  Entries for FY 1999,” August 18, 2000, states that the Defense Finance and
  Accounting Service (DFAS) processed $7.6 trillion in department-level accounting
  entries in FY 1999. Because of prior report results, we determined that a review of
  accounting entries made at DFAS field sites included in these department-level
  accounting entries could provide insight on other problems related to the accounting
  entry process. There are a number of audit efforts underway throughout DoD to
  review FY 2000 accounting entries at the department-level and at different DFAS
  field sites. In this report, we identified and evaluated accounting entries made by
  DFAS Omaha to U.S. Transportation Command (USTRANSCOM) financial data.
  In addition, we determined whether reconciliations and other internal controls used
  by DFAS Omaha adequately ensured that USTRANSCOM data were complete,
  accurate, and consistent prior to transmission to DFAS.

  U.S. Transportation Command. On April 18, 1987, the Secretary of Defense
  established the USTRANSCOM as a unified command to integrate global air, land,
  and sea transportation during wartime. In 1992, the role of USTRANSCOM
  expanded to include a peacetime mission, making them the single DoD-financial
  manager of all common-user transportation. Headquarters USTRANSCOM at Scott
  Air Force Base, Illinois, executes its mission through three Transportation
  Component Commands: the Military Traffic Management Command, Falls Church,
  Virginia; the Military Sealift Command, Washington, D.C.; and the Air Mobility
  Command, Scott Air Force Base, Illinois.

  Financial Reporting. On October 1, 1997, the Under Secretary of Defense
  (Comptroller/Chief Financial Officer) transferred the cash management for
  USTRANSCOM to the Air Force working capital fund. However, for financial
  reporting purposes, USTRANSCOM remained part of the Other Defense
  Organizations included in the DoD Agency-wide financial statements. Finance and
  accounting functions for USTRANSCOM and the Transportation Component
  Commands gradually transitioned to DFAS Omaha from October 1996 to March
  1998. DFAS Denver consolidates the financial data for USTRANSCOM and its
  Transportation Component Commands and prepares the DoD Agency-wide financial
  statements required by the Chief Financial Officers Act.

  General Ledger Accounting Structure. USTRANSCOM and its Transportation
  Component Commands use different general ledger accounting structures. The
  USTRANSCOM, Headquarters, and its Air Mobility Command use the Air Force
  Industrial Fund general ledger structure. The Military Traffic Management
  Command uses the Army Industrial Fund general ledger structure. The Military
  Sealift Command at the time of our audit used the Department of the Navy
  Industrial Business Fund general ledger structure. In July 2000, the Military Sealift
  Command implemented a U.S. Standard General Ledger accounting structure.
                                          1
  Field Site Accounting Overview. As a DFAS Denver field site, DFAS Omaha
  performs operational-level accounting functions. The Transportation Component
  Commands’ field-level activities process transactions and transmit the financial data
  to DFAS Omaha. After the journal entries and other adjustments have been made,
  DFAS Omaha creates a single trial balance for each Transportation Component
  Command, and provides the trial balances to DFAS Denver. DFAS Denver
  consolidates the trial balances, makes adjustments, and then provides the
  summarized accounting data to its customers.

Objectives
  Our overall objective was to determine whether adequate procedures were used by
  DFAS field sites in processing and reporting USTRANSCOM data in the FY 2000
  DoD Agency-Wide Financial Statements. Specifically, we identified and evaluated
  JV and other accounting entries made by DFAS Omaha to USTRANSCOM data
  included in the FY 2000 DoD Agency-Wide Financial Statements. See Appendix A
  for a discussion of the audit scope and methodology.




                                          2
             Adequacy of Accounting Entries
             The Defense Finance and Accounting Service Omaha made $12.6 billion
             in JV accounting entries to USTRANSCOM accounting records in
             March 2000, of which $11.6 billion (92 percent) were not adequately
             supported. Further, $.2 billion (2 percent) of the unsupported entries were
             not properly approved. These conditions occurred because:

                •   existing DoD guidance on the use and preparation of JVs was not
                    followed and more recent guidance was not implemented at
                    Defense Finance and Accounting Service Omaha;

                •   supporting documentation was nonexistent, incomplete, or did not
                    support the amount of the accounting entry; and

                •   Defense Finance and Accounting Service Omaha personnel did
                    not always obtain approval for the accounting entries.

             Consequently, these material control weaknesses will affect the accuracy
             and reliability of the accounting records and the information included in
             the FY 2000 DoD Agency-Wide Financial Statements. Although we are
             unable to project our results over the $173.6 billion in USTRANSCOM
             accounting entries processed by Defense Finance and Accounting Service
             Omaha during FY 2000, additional unsupported transactions may have
             occurred throughout the entire year.

Guidance
  General Guidance. Appendix B provides details on specific guidance on
  accounting and administrative controls in the United States Code, Office of
  Management and Budget, and General Accounting Office publications. These
  requirements were incorporated in the following DoD regulation and agency
  guidance.

  DoD Financial Management Regulation. DoD Regulation 7000.14-R, “DoD
  Financial Management Regulation,” volume 6A, “Reporting Policy and
  Procedures,” January 1998, as revised through April 2000, provides guidance on
  the roles and responsibilities of DFAS and its customers regarding financial reports
  and the treatment of transactions from which the financial data in the reports are
  derived. DoD Regulation 7000.14-R requires that DFAS adequately support and
  justify in writing all adjustments to the official accounting records. Documentation
  related to the adjustment must include the rationale and justification, the detail
  numbers and dollar amounts of errors or conditions that are associated with the
  transactions or records that are proposed for adjustment, and name and position of
  the approving official. Further, the guidance states that the documentation must
  provide an adequate audit trail to the adjusted or corrected transactions.

  DoD Regulation 7000.14-R specifies that its focus is on financial reports at the DoD
  component departmental level and the financial transactions that support those

                                          3
  reports. DoD Regulation 7000.14-R further stipulates that additional guidance will
  be developed at a later date to cover intermediate and installation levels. However,
  the additional guidance was not issued. We believe that the adjustments made at the
  intermediate-level are financial transactions, which ultimately support the financial
  reports.

  DFAS Guidance. In October 1999, the DFAS Director for Accounting issued a
  memorandum providing further guidance on the use and preparation of JVs.
  Specifically, the guidance states that all JVs must be:

     •   sequentially numbered by entity and reflected in a JV log;

     •   identified by specific JV category;
     •   reviewed to ensure proper recording of entries;

     •   adequately documented to support the validity and the amount of the
         transaction;

     •   authorized and approved by the appropriate approving authority;

     •   prepared, documented, submitted, approved, and entered employing
         segregated duties;

     •   annotated with the name, title, and office symbol of both the preparer and
         approver; and

     •   maintained in a central location and retained for 6 years.

Supporting Documentation and Approval
  During March 2000, DFAS Omaha made 277 JV accounting entries with total
  debits of $12.6 billion to accounting records of the USTRANSCOM working capital
  fund. DFAS Omaha consolidates the USTRANSCOM accounting data and provides
  monthly Transportation Component Commands trial balances to DFAS Denver.
  DFAS Denver further adjusts and consolidates the Transportation Component
  Commands data into the Departmental-level trial balances. The data are ultimately
  used to prepare the Other Defense Organizations working capital fund information
  included in the DoD Agency-wide financial statements.




                                          4
Unsupported Accounting Entries. We reviewed the 277 USTRANSCOM JV
accounting entries made by DFAS Omaha for March 2000. As illustrated in the
figure below, DFAS Omaha did not support 186 JVs valued at $11.6 billion in
entries processed, and 91 JVs valued at $1.0 billion were supported.




            Supported and Unsupported Accounting Entries
                       March 2000 (in Dollars)

                                                 8 Percent
                                                 Supported
                                                 $1.0 Billion



                    92 Percent
                   Unsupported
                   $11.6 Billion




The JV accounting entries were unsupported because documentation was either
incomplete, missing, or some entries were not properly approved. The table shows
a breakdown of entries by category of discrepancy. It should be noted that several
of the entries reviewed had multiple discrepancies that fell into more than one of the
categories. Therefore, the dollar amounts in the table will not add up to the
$11.6 billion in total unsupported entries.


               Unsupported Accounting Entries Table
       Category of Discrepancy     Number               Dollar Amount

       Incomplete documentation      138                 $10.1 Billion
       No documentation               48                   1.5 Billion
       Inadequate explanation         55                    .7 Billion
       Lack of approval               28                    .2 Billion




                                        5
Incomplete Documentation. Supporting documentation was incomplete and did
not fully support all dollar amounts on 138 of 277 JV accounting entries reviewed.
In some cases the audit trails necessary for locating supporting documentation were
either nonexistent or lacked sufficient detail. For example, the supporting
documentation for 18 entries could not be reconciled to the JV accounting entry
amount. On Military Sealift Command JV No. HQ156 ($.4 million), the supporting
data do not add up to the total amounts shown on the face of the JV. In another
example, Military Sealift Command JV No. HQ139 ($2.0 million) consisted of
confusing handwritten notes we were unable to track to the debit/credit JV amounts
(see Appendix C). The 138 entries were valued at $10.1 billion.

No Documentation. Supporting documentation was missing from 48 of 277 JV
accounting entries reviewed. For example, Air Mobility Command JV No. 424
($87.9 million) contained no documentation or explanation to support the entry.
The 48 entries were valued at $1.5 billion.

Inadequate Explanation. Supporting documentation did not contain an adequate,
and in some cases, any explanation of the transaction on 55 of 277 JV accounting
entries reviewed. For example, the explanation provided for Military Sealift
Command JV No. HQ165 ($8.4 million) was to correct three prior JV accounting
entries. However, only partial information on two of the three JVs was attached to
JV No. HQ165 and further explanation was not provided. The 55 entries were
valued at $.7 billion.

Lack of Approval. JV documentation for 28 of 277 JV accounting entries
reviewed had not been signed by a preparer nor had they been approved. The
28 entries were valued at $.2 billion. Additionally, 59 JV accounting entries lacked
preparer signatures. For example, Military Sealift Command JV No. HQ163
($169.4 million) was processed without the signature of the preparer or approver.

Management Initiatives. Review of the DFAS Omaha accounting entry process
disclosed that existing guidance was not followed. Further, local procedures had
not been developed. Also, at the time of our audit, DFAS Denver had not
implemented at its field sites, the October 1999 JV guidance issued by the DFAS
Director for Accounting. In August 2000, DFAS Omaha issued a local procedure
implementing the October 1999 DFAS JV guidance.

When informed that the October 1999 JV guidance was not implemented at DFAS
Denver field sites, the DFAS Arlington Director for Accounting issued a
memorandum on August 2, 2000, providing JV guidance that incorporated and
clearly emphasized the requirement to implement the October 1999 guidance. The
JV documentation and approval requirements specified in this later guidance were
retroactive to October 1, 1999, for certain JVs. However, the later DFAS guidance
did not provide any performance standards or an action plan with metrics for
measuring progress in implementing the JV guidance. In addition, the later DFAS
JV guidance inappropriately allowed JVs to be submitted for and approved 5 work
days before all supporting documentation had been identified and made available to
the approving official. No JV should be submitted for approval until all supporting
documentation is made available to the approving official.


                                       6
Summary
  Because of a lack of integrated financial management systems, JV accounting
  entries at the DFAS field sites are necessary to input data, correct errors, post and
  reverse closing entries, and make prior period adjustments. However, DFAS
  Omaha did not always fully support or provide sufficient explanation for the
  JV accounting entries it made to USTRANSCOM records. Further, in some cases,
  DFAS Omaha personnel did not obtain approval for these accounting entries. Many
  of the documentation problems identified with JV accounting entries made to
  USTRANSCOM records can be easily corrected by simply attaching adequate
  support, providing more detailed explanations in the JV, or providing sufficiently
  detailed audit trails. The problems identified have resulted in significant amounts of
  accounting entries being unsupported. The conditions disclosed from reviewing
  1 month of data indicate that the unsupported amounts for JV accounting entries
  processed by DFAS Omaha for USTRANSCOM could be far greater over the entire
  fiscal year. The material weaknesses disclosed in this report impact on the accuracy
  and reliability of the accounting records and the FY 2000 DoD Agency-Wide
  Financial Statements. Effective and complete implementation of the guidance
  discussed in this report should correct the problems noted.

Management Comments Related to the Finding and Audit
Response
  Summarized below are management’s comments related to the finding and the audit
  response. For the full text of DFAS comments, see the Management Comments
  section of the report.

      DFAS Comments. DFAS stated that we considered an accounting entry
  unsupported if the supporting documentation was not attached to the JV, although
  cross-referenced, when presented for audit. DFAS further stated that it
  subsequently reviewed 103 of the accounting entries identified as unsupported by
  the audit. Of the 103 entries reviewed, DFAS stated that 97 were fully supportable,
  although the supporting documentation was not filed with the JV package.

      Audit Response. DFAS comments incorrectly imply that the unsupported
  accounting entries sufficiently cross-referenced the supporting documentation that
  was not included in the JV packages. Of 277 accounting entries reviewed,
  186 were not cross-referenced or did not provide an adequate audit trail to
  supporting documentation. We commend DFAS for conducting its own followup
  review of 103 unsupported accounting entries. However, DFAS applied different
  criteria than what is specified by DoD and DFAS JV guidance in reaching their
  conclusion that adequate support was available for 97 of the 103 unsupported
  entries. The DFAS review results focused on ensuring that documentary support
  was available for the unsupported JVs, even if the support was not included in, or
  adequately cross-referenced by the JV package. Applying these criteria may
  reassure DFAS that the transactions were actually valid. However, the DFAS
  review does not alter the fact that internal controls did not ensure the accounting


                                          7
   entries were adequately supported when presented for approval, as required by
   applicable DoD guidance.

Recommendations, Management Comments, and Audit
Response
We revised Recommendation 1. to reference the current journal voucher guidance
issued by the Director for Accounting, Defense Finance and Accounting Service, as
revised by Recommendation 2.a.

1. We recommend that the Director, Defense Finance and Accounting Service
Omaha, fully implement applicable provisions of DoD Regulation 7000.14-R, the
“DoD Financial Management Regulation,” volume 6A, “Reporting Policy and
Procedures,” January 1998, and the memorandum issued by the Director for
Accounting, Defense Finance and Accounting Service, “Journal Voucher
Guidance,” August 2, 2000 (as revised by Recommendation 2.), by:

     a. Providing adequate supporting documentation, including a sufficient
explanation of all accounting entries made by journal voucher.

     b. Obtaining appropriate approval for all accounting entries made by
journal voucher.

DFAS Comments. DFAS concurred and stated that DFAS Omaha has taken corrective
actions to ensure that its accounting entries are adequately supported, explained, and
approved. These corrective actions include fully implementing applicable provisions of
the DoD Financial Management Regulation and the August 2, 2000, JV guidance issued
by DFAS Arlington.

2. We recommend that the Director, Defense Finance and Accounting Service,
revise the August 2, 2000, guidance on journal vouchers to:

    a. Require that approving officials be provided with all required supporting
documentation at the time each journal voucher is submitted for approval,

      b. Establish performance standards for all field and other site directors to
set appropriate goals by which to measure the progress made in implementing
DFAS Arlington journal voucher guidance, and

     c. Develop and implement an action plan with detailed metrics to
periodically measure the progress made by field and other site directors in
achieving these performance standards.

DFAS Comments. DFAS concurred in principle, stating that adequate documentation
is already required for all JVs at the time of approval. DFAS proposed an alternative
to developing performance standards and an action plan for implementing the DFAS
Arlington JV guidance. As an alternative to Recommendations 2.b. and 2.c., DFAS
planned to develop and provide JV training to each field organization. Further, to
monitor progress in improving the accounting entry process and procedures, DFAS

                                          8
added JV reviews to their Internal Control Operational Reviews made during field
visits. DFAS planned to complete these corrective actions by June 30, 2001.

Audit Response. The DFAS comments on Recommendation 2.a. are nonresponsive.
In response to the recommendation, DFAS incorrectly stated that adequate
documentation is already required at the time a JV is submitted for approval. Our
report discussion of Management Initiatives notes that the JV guidance issued by DFAS
Arlington on August 2, 2000, allows JVs to be approved 5 work days before all
supporting documentation is identified and made available to the approving official.
The guidance should be changed to require that all supporting documentation be
presented at the time a JV is submitted for approval.

The DFAS comments on Recommendations 2.b. and 2.c. are partially responsive.
Although sound actions, the DFAS alternatives to Recommendations 2.b. and 2.c.will
not provide DFAS managers with the performance standards and an action plan by
which to measure the progress made in implementing the DFAS Arlington JV guidance.
As an example of responsive corrective action, DFAS could set specific performance
standards to reduce the number and volume of accounting entries made to correct errors
and develop an action plan to measure progress in meeting the standards. Related
performance standards and metrics could also be developed for independent verification
of each site’s performance reports.

We ask that DFAS provide additional comments to the final report in response to
Recommendations 2.a., 2.b., and 2.c.




                                          9
Appendix A. Audit Process

Scope
  Work Performed. We reviewed 100 percent of the USTRANSCOM JV
  accounting entries that DFAS Omaha processed for March 2000. USTRANSCOM
  accounting entries made by DFAS Omaha included 277 monthly entries valued at
  $12.6 billion. In FY 2000 DFAS Omaha processed 2,466 USTRANSCOM JV
  accounting entries valued at $173.6 billion. We reviewed guidance on the JV entry
  process. For the accounting entries reviewed, we developed categories for use in
  classifying each entry and identified their type and scope. Further, we reviewed
  each accounting entry to determine whether DFAS Omaha had adequately supported
  it, maintained adequate audit trails, and complied with generally accepted
  accounting principles and other applicable guidance.

  DoD-Wide Corporate-Level Government Performance and Results Act
  Coverage. In response to the Government Performance and Results Act, the
  Secretary of Defense annually establishes DoD-wide corporate-level goals,
  subordinate performance goals, and performance measures. This report pertains to
  achievement of the following goal, subordinate performance goal, and performance
  measures:

  FY 2001 Corporate-Level Goal 2: Prepare now for an uncertain future by
  pursuing a focused modernization effort that maintains U.S. qualitative superiority
  in key warfighting capabilities. Transform the force by exploiting the Revolution in
  Military Affairs, and reengineer the Department to achieve a 21st century
  infrastructure. (01-DoD-2)

             •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
                 financial and information management. (01-DoD-2.5)

             •   FY 2001 Performance Measure 2.5.1: Reduce the number of
                 noncompliant accounting and financial systems. (01-DoD-2.5.1)

             •   FY 2001 Performance Measure 2.5.2: Achieve unqualified
                 opinions on financial statements. (01-DoD-2.5.2)

  DoD Functional Area Reform Goals. Most major DoD functional areas have also
  established performance improvement reform objectives and goals. This report
  pertains to achievement of the following functional area objective and goal.

             •   Financial Management Area. Objective: Strengthen internal
                 controls. Goal: Improve compliance with the Federal Managers’
                 Financial Integrity Act. (FM 5.3)




                                         10
  General Accounting Office High-Risk Area. The General Accounting Office has
  identified several high-risk areas in the Department of Defense. This report
  provides coverage of the Defense Financial Management high-risk area.


Methodology
  Use of Computer-Processed Data. We relied on computer-processed data from
  multiple reporting systems that process accounting data for USTRANSCOM. We
  did not evaluate the general and application controls of the systems because the
  process for preparing and approving JV entries at DFAS Omaha is primarily a
  manual process. Not evaluating the controls did not affect the results of the audit.

  Audit Type, Dates, and Standards. We performed this financial-related audit
  from May 2000 to January 2001 in accordance with audit standards issued by the
  Comptroller General of the United States, as implemented by the Inspector General,
  DoD. We did not review the management control program as it related to the
  overall objective because the scope of the audit was modified due to time
  constraints.

  Contacts During the Audit. We visited or contacted individuals and organizations
  within the DoD. Further details are available on request.


Prior Coverage
  The General Accounting Office and the Inspector General, DoD, have conducted
  multiple reviews related to financial statement issues. General Accounting Office
  reports can be accessed on the Internet at http://www.gao.gov. Inspector General
  DoD, reports can be accessed on the Internet at http://www.dodig.osd.mil.




                                          11
Appendix B. General Guidance
 Section 35, Title 31, United States Code. The requirements of the Federal
 Manager’s Financial Integrity Act of 1982 for an agency’s internal accounting and
 administrative controls were incorporated in section 3512, title 31, United States
 Code (31 U.S.C. 3512). That section requires DoD to establish and to implement
 internal accounting and administrative controls to provide reasonable assurance that
 “ . . . revenues and expenditures applicable to agency operations and statistical
 reports may be prepared and accountability of the assets may be maintained.” In
 addition, 31 U.S.C. 3512 requires DoD to assess the effectiveness of the internal
 accounting and administrative controls established and implemented.

 Office of Management and Budget Circular No. 123. Office of Management and
 Budget Circular No. A-123, “Management Accountability and Control,”
 June 21, 1995, provides guidance to Federal managers on improving the
 accountability and effectiveness of Federal programs and operations by establishing,
 assessing, correcting, and reporting on management controls. The Circular requires
 Federal managers to promptly record, properly classify, and account for
 transactions to prepare timely and reliable accounts and reports.

 General Accounting Office “Standards for Internal Control in the Federal
 Government.” The General Accounting Office publication, “Standards for Internal
 Control in the Federal Government,” November 1999, provides an overall
 framework for internal control. The standards state that control activities occur at
 all levels within an entity and include a wide range of diverse activities, including
 approvals, verifications, reconciliations, performance reviews, and maintenance of
 security. Further, the standards require clear documentation of all transactions and
 other significant events, and documentation should be readily available for
 examination.




                                        12
     Illustrated below, Military Sealift Command JV No. HQ 139 is 1 of 138 JV accounting entries; valued
     at $10.1 billion, made in March 2000 by DFAS Omaha that was unsupported because of incomplete
     documentation. The rationale and basis used by DFAS Omaha officials in preparing and approving the
     JV is unintelligible from the support for the JV, which is shown on the next two pages of this appendix.
     The support does not clearly show the basis for the JV and does not provide an adequate audit trail to
     identify the source documentation.
                                                                                                                            Voucher




13
                                                                                                                Appendix C. Example of Unsupported Journal
14
15
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
     Director, Accounting Policy

Department of the Army
Auditor General, Department of the Army


Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Command
Commander in Chief, U.S. Transportation Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Denver

Non-Defense Federal Organization
Office of Management and Budget




                                           16
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         17
18
Defense Finance and Accounting Service
Comments




                   19
20
21
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD,
who contributed to the report are listed below.

F. Jay Lane
Salvatore D. Guli
Brian M. Flynn
W. Andy Cooley
Jeffrey A. Lee
Gerald P. Montoya
Mary K. Reynolds
Jason T. Hamilton
Margaret R. Westfall
Tara L. Drotar
